                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 14-01290-222




    Combined Assessment Program 

           Review of the 

       South Texas Veterans 

         Health Care System 

         San Antonio, Texas 





July 24, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                            CAP Review of the South Texas Veterans Health Care System, San Antonio, TX



                                                 Glossary
                 CAP               Combined Assessment Program
                 CLC               community living center
                 EHR               electronic health record
                 EOC               environment of care
                 facility          South Texas Veterans Health Care System
                 FY                fiscal year
                 MEC               Medical Executive Committee
                 MH                mental health
                 MRI               magnetic resonance imaging
                 NA                not applicable
                 NM                not met
                 OIG               Office of Inspector General
                 PACU              post-anesthesia care unit
                 PRC               Peer Review Committee
                 QM                quality management
                 SDS               same day surgery
                 tPA               tissue plasminogen activator
                 VHA               Veterans Health Administration
                 VISN              Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                               CAP Review of the South Texas Veterans Health Care System, San Antonio, TX



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 6

  Medication Management......................................................................................... 8

  Coordination of Care ............................................................................................... 9

  Acute Ischemic Stroke Care ................................................................................... 10

  CLC Resident Independence and Dignity ............................................................... 12

  MRI Safety .............................................................................................................. 14


Appendixes
  A. Facility Profile ....................................................................................................      16

  B. Strategic Analytics for Improvement and Learning ............................................                              17

  C. Acting VISN Director Comments .......................................................................                      20

  D. Facility Director Comments ...............................................................................                 21

  E. OIG Contact and Staff Acknowledgments .........................................................                            29

  F. Report Distribution .............................................................................................          30

  G. Endnotes ...........................................................................................................       31





VA OIG Office of Healthcare Inspections
                        CAP Review of the South Texas Veterans Health Care System, San Antonio, TX



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings. We conducted the review the week of May 5, 2014.

Review Results:          The review covered seven activities.                   We made no
recommendations in the following activity:

 Coordination of Care

Recommendations: We made recommendations in the following six activities:
Quality Management: Ensure the Blood Utilization Committee member from Surgery
Service consistently attends meetings.

Environment of Care: Ensure patient care areas are clean. Repair damaged doors and
floors and rusted lockers in patient care areas. Ensure damaged furniture in patient
care areas is repaired or removed from service.

Medication Management: Complete and document discharge progress notes or patient
discharge instructions.

Acute Ischemic Stroke Care: Complete and document the National Institutes of Health
Stroke Scale for each stroke patient. Provide printed stroke education to patients upon
discharge. Ensure staff involved in assessing and treating stroke patients receive the
training required by the facility. Collect and report to the Veterans Health Administration
the percent of eligible patients given tissue plasminogen activator, the percent of
patients with stroke symptoms who had the stroke scale completed, and the percent of
patients screened for difficulty swallowing before oral intake.

Community Living Center Resident Independence and Dignity:            Complete and
document restorative nursing services according to clinician orders and/or residents’
care plans. Document resident progress towards restorative nursing goals and the
reasons for not providing restorative nursing services when those services are care
planned. Ensure the restorative registered nurse or designee signs and provides
feedback, if indicated, on restorative aide notes.

Magnetic Resonance Imaging Safety: Conduct initial patient safety screenings.
Complete secondary patient safety screenings immediately prior to magnetic resonance
imaging (MRI). Ensure that Level 2 MRI personnel review secondary patient safety
screenings on the same day as the MRI and that Level 2 MRI personnel conducting
secondary patient safety screenings sign the forms prior to MRI. Require that
radiologists and/or Level 2 MRI personnel document resolution of all identified
contraindications in patients’ electronic health records prior to the scan. Ensure all
designated Level 1 ancillary staff receive annual level-specific MRI safety training.



VA OIG Office of Healthcare Inspections                                                          i
                        CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


Comments
The Acting Veterans Integrated Service Network Director and Facility Director agreed
with the Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 20–28, for
the full text of the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                        CAP Review of the South Texas Veterans Health Care System, San Antonio, TX



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Acute Ischemic Stroke Care

   	 CLC Resident Independence and Dignity

   	 MRI Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
May 5, 2014, and was done in accordance with OIG standard operating procedures for
CAP reviews. We also asked the facility to provide the status on the recommendations


VA OIG Office of Healthcare Inspections                                                         1
                        CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


we made in our previous CAP report (Combined Assessment Program Review of the
South Texas Veterans Health Care System, San Antonio, Texas, Report
No. 12-00370-156, April 17, 2012).

During this review, we presented crime awareness briefings for 330 employees.
These briefings covered procedures for reporting suspected criminal activity to the OIG
and included case-specific examples illustrating procurement fraud, conflicts of interest,
and bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
589 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.




VA OIG Office of Healthcare Inspections                                                         2
                                 CAP Review of the South Texas Veterans Health Care System, San Antonio, TX



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The area marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                       Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                  3
                                 CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


NM               Areas Reviewed (continued)                                 Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
       The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        Surgical deaths with identified problems or
          opportunities for improvement were
          reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                  4
                                 CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


NM              Areas Reviewed (continued)                                   Findings
 X     The process to review blood/transfusions          Twelve months of Blood Utilization Committee
       usage met selected requirements:                  meeting minutes reviewed:
        A committee with appropriate clinical            The clinical representative from Surgery
          membership met at least quarterly to review      Service attended only 5 of 10 meetings.
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendation

1. We recommended that processes be strengthened to ensure that the Blood Utilization
Committee member from Surgery Service consistently attends meetings.




VA OIG Office of Healthcare Inspections                                                                  5
                                 CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether the facility
met selected requirements in SDS, the PACU, and the eye clinic.b

At the San Antonio division, we inspected medical, surgical, medical intensive care, and MH
inpatient units; the eye clinic; the emergency department; SDS; the PACU; and the two CLCs.
At the Kerrville division, we inspected the eye clinic and two CLCs. Additionally, we reviewed
relevant documents, conversed with key employees and managers, and reviewed 35 employee
training records (10 SDS, 10 operating room, 10 PACU, and 5 eye clinic).    The table below
shows the areas reviewed for this topic. The area marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM            Areas Reviewed for General EOC                                Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.       Four of nine patient care areas had dirty
                                                          floors and/or bathrooms.
                                                         Four of nine patient care areas had damaged
                                                          floors, damaged doors, and/or rusted patient
                                                          lockers.
                                                         Five of nine patient care areas had damaged
                                                          furniture.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                  6
                                 CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


NM        Areas Reviewed for SDS and the PACU                               Findings
       Designated SDS and PACU employees
       received bloodborne pathogens training
       during the past 12 months.
       Designated SDS employees received medical
       laser safety training with the frequency
       required by local policy.
       Fire safety requirements in SDS and on the
       PACU were met.
       Environmental safety requirements in SDS
       and on the PACU were met.
       SDS medical laser safety requirements were
       met.
       Infection prevention requirements in SDS and
       on the PACU were met.
       Medication safety and security requirements
       in SDS and on the PACU were met.
       Auditory privacy requirements in SDS and on
       the PACU were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Eye Clinic
       Designated eye clinic employees received
       laser safety training with the frequency
       required by local policy.
       Environmental safety requirements in the eye
       clinic were met.
       Infection prevention requirements in the eye
       clinic were met.
       Medication safety and security requirements
       in the eye clinic were met.
       Laser safety requirements in the eye clinic
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

2. We recommended that processes be strengthened to ensure that patient care areas are
clean and that compliance be monitored.

3. We recommended that processes be strengthened to ensure that damaged doors and
floors and rusted lockers in patient care areas are repaired and that ongoing maintenance be
monitored.

4. We recommended that processes be strengthened to ensure that damaged furniture in
patient care areas is repaired or removed from service.



VA OIG Office of Healthcare Inspections                                                                  7
                                 CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.c

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 34 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The area
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                      Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
 X     Providers completed discharge progress             Twenty-nine EHRs (85 percent) did not
       notes or discharge instructions, written            contain documented physician discharge
       instructions were provided to                       progress notes or discharge instructions.
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

5. We recommended that processes be strengthened to ensure that physicians complete and
document discharge progress notes or patient discharge instructions and that compliance be
monitored.




VA OIG Office of Healthcare Inspections                                                                  8
                                 CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.d

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 29 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                     Areas Reviewed                                        Findings
      Patients’ post-discharge needs were identified,
      and discharge planning addressed the
      identified needs.
      Clinicians provided discharge instructions to
      patients and/or caregivers and validated their
      understanding.
      Patients received the ordered aftercare
      services and/or items within the
      ordered/expected timeframe.
      Patients’ and/or caregivers’ knowledge and
      learning abilities were assessed during the
      inpatient stay.
      The facility complied with any additional
      elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  9
                                  CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


Acute Ischemic Stroke Care
The purpose of this review was to determine whether VHA facilities complied with selected
requirements for the assessment and treatment of patients who had an acute ischemic stroke.e

We reviewed relevant documents, the EHRs of 43 randomly selected patients who experienced
stroke symptoms, and 10 employee training records, and we conversed with key employees.
We also conducted onsite inspections of the emergency department, one critical care unit, and
two acute inpatient units. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
       The facility’s stroke policy/plan/guideline
       addressed all required items.
 X     Clinicians completed the National Institutes of     Thirty of the 34 applicable EHRs (88 percent)
       Health Stroke Scale for each patient within the      did not contain documented evidence of
       expected timeframe.                                  completed stroke scales.
 NA    Clinicians provided medication (tPA) timely to
       halt the stroke and included all required steps,
       and tPA was in stock or available within
       15 minutes.
       Stroke guidelines were posted in all areas
       where patients may present with stroke
       symptoms.
       Clinicians screened patients for difficulty
       swallowing prior to oral intake of food or
       medicine.
 X     Clinicians provided printed stroke education to     None of the 30 applicable EHRs contained
       patients upon discharge.                             documentation that stroke education was
                                                            provided to the patient/caregiver.
 X     The facility provided training to staff involved    Three employees had not completed the
       in assessing and treating stroke patients.           web-based training required by the facility.
 X     The facility collected and reported required        There was no evidence that the following data
       data related to stroke care.                         were collected and/or reported to VHA:
                                                            o Percent of eligible patients given tPA
                                                            o Percent of patients with stroke symptoms
                                                               who had the stroke scale completed
                                                            o Percent of patients screened for difficulty
                                                               swallowing before oral intake
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

6. We recommended that processes be strengthened to ensure that clinicians complete and
document the National Institutes of Health Stroke Scale for each stroke patient and that
compliance be monitored.



VA OIG Office of Healthcare Inspections                                                                  10
                                 CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


7. We recommended that processes be strengthened to ensure that clinicians provide printed
stroke education to patients upon discharge and that compliance be monitored.

8. We recommended that processes be strengthened to ensure that staff who are involved in
assessing and treating stroke patients receive the training required by the facility and that
compliance be monitored.

9. We recommended that the facility collect and report to VHA the percent of eligible patients
given tissue plasminogen activator, the percent of patients with stroke symptoms who had the
stroke scale completed, and the percent of patients screened for difficulty swallowing before oral
intake.




VA OIG Office of Healthcare Inspections                                                                 11
                                 CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.f

We reviewed 11 EHRs of residents (10 residents receiving restorative nursing services and
1 resident not receiving restorative nursing services but a candidate for services). We also
observed three residents during two meal periods, reviewed nine employee training/competency
records and other relevant documents, and conversed with key employees. The table below
shows the areas reviewed for this topic. The areas marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM                      Areas Reviewed                                      Findings
       The facility offered restorative nursing
       services.
 X     Facility staff completed and documented           In 5 of the 10 applicable EHRs, there was no
       restorative nursing services, including active     documentation that facility staff completed
       and passive range of motion, bed mobility,         restorative nursing services according to
       transfer, and walking activities, according to     clinician orders and/or residents’ care plans.
       clinician orders and residents’ care plans.
 X     Resident progress towards restorative nursing     In five of the nine applicable EHRs, there was
       goals was documented, and interventions            no evidence that facility staff documented
       were modified as needed to promote the             resident progress towards restorative nursing
       resident’s accomplishment of goals.                goals.
 X     When restorative nursing services were care       None of the five EHRs where restorative
       planned but were not provided or were              nursing services were care planned but not
       discontinued, reasons were documented in           provided reflected the reasons.
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
 X     The facility complied with any additional        Facility policy on additional signature and
       elements required by VHA or local policy.        feedback on the restorative aide note by the
                                                        restorative registered nurse or designee, when
                                                        indicated, reviewed:
                                                         None of the 10 applicable patients’ EHRs
                                                           contained restorative aide notes with
                                                           additional signatures.




VA OIG Office of Healthcare Inspections                                                                  12
                                 CAP Review of the South Texas Veterans Health Care System, San Antonio, TX



Recommendations

10. We recommended that processes be strengthened to ensure that staff complete and
document restorative nursing services according to clinician orders and/or residents’ care plans
and that compliance be monitored.

11. We recommended that processes be strengthened to ensure that staff document resident
progress towards restorative nursing goals and that compliance be monitored.

12. We recommended that processes be strengthened to ensure that staff document the
reasons for not providing restorative nursing services when those services are care planned and
that compliance be monitored.

13. We recommended that processes be strengthened to ensure that the restorative registered
nurse or designee signs and provides feedback, if indicated, on restorative aide notes.




VA OIG Office of Healthcare Inspections                                                                 13
                                 CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


MRI Safety
The purpose of this review was to determine whether VHA facilities ensured safety in MRI in
accordance with VHA policy requirements related to: (1) staff safety training, (2) patient
screening, and (3) risk assessment of the MRI environment.g

We reviewed relevant documents and the training records of 29 employees (23 randomly
selected Level 1 ancillary staff and 6 designated Level 2 MRI personnel), and we conversed
with key managers and employees. We also reviewed the EHRs of 34 randomly selected
patients who had an MRI January 1–December 31, 2013. Additionally, we conducted physical
inspections of two MRI areas. The table below shows the areas reviewed for this topic. The
areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

NM                    Areas Reviewed                                        Findings
       The facility completed an MRI risk
       assessment, there were documented
       procedures for handling emergencies in MRI,
       and emergency drills were conducted in the
       MRI area.
 X     Two patient safety screenings were conducted      Fifteen of the 34 EHRs (44 percent) did not
       prior to MRI, and the secondary patient safety     contain initial patient safety screenings.
       screening form was signed by the patient,         Six of the 34 EHRs (18 percent) did not
       family member, or caregiver and reviewed and       contain secondary patient safety screenings
       signed by a Level 2 MRI personnel.                 prior to MRI.
                                                         Four of the 28 secondary patient safety
                                                          screening forms were not reviewed by Level 2
                                                          MRI personnel on the same day as the MRI.
                                                         Twenty-four of the 28 secondary patient
                                                          safety screening forms were not signed by a
                                                          Level 2 MRI personnel prior to MRI.
 X     Any MRI contraindications were noted on the       Sixteen of the 21 applicable EHRs did not
       secondary patient safety screening form, and       contain documentation that all identified
       a Level 2 MRI personnel and/or radiologist         contraindications were addressed prior to
       addressed the contraindications and                MRI.
       documented resolution prior to MRI.
 X     Level 1 ancillary staff and Level 2 MRI           Twelve Level 1 ancillary staff did not receive
       personnel were designated and received             level-specific annual MRI safety training.
       level-specific annual MRI safety training.
       Signage and barriers were in place to prevent
       unauthorized or accidental access to Zones III
       and IV.
       MRI technologists maintained visual contact
       with patients in the magnet room and two-way
       communication with patients inside the
       magnet, and the two-way communication
       device was regularly tested.




VA OIG Office of Healthcare Inspections                                                                    14
                                 CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


NM              Areas Reviewed (continued)                                  Findings
       Patients were offered MRI-safe hearing
       protection for use during the scan.
       The facility had only MRI-safe or compatible
       equipment in Zones III and IV, or the
       equipment was appropriately protected from
       the magnet.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

14. We recommended that processes be strengthened to ensure that initial patient safety
screenings are conducted and that compliance be monitored.

15. We recommended that processes be strengthened to ensure that secondary patient safety
screenings are completed immediately prior to magnetic resonance imaging and that
compliance be monitored.

16. We recommended that processes be strengthened to ensure that secondary patient safety
screenings are reviewed by Level 2 magnetic resonance imaging personnel on the same day as
the magnetic resonance imaging and that compliance be monitored.

17. We recommended that processes be strengthened to ensure that Level 2 magnetic
resonance imaging personnel conducting secondary patient safety screenings sign the forms
prior to magnetic resonance imaging and that compliance be monitored.

18. We recommended that processes be strengthened to ensure that radiologists and/or
Level 2 magnetic resonance imaging personnel document resolution in patients’ electronic
health records of all identified magnetic resonance imaging contraindications prior to the scan
and that compliance be monitored.

19. We recommended that processes be strengthened to ensure that all designated
Level 1 ancillary staff receive annual level-specific magnetic resonance imaging safety training
and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                 15
                              CAP Review of the South Texas Veterans Health Care System, San Antonio, TX
                                                                                            Appendix A


Facility Profile (San Antonio/671) FY 2014 through May 20141
Type of Organization                                                               Tertiary
Complexity Level                                                                   1a-High complexity
Affiliated/Non-Affiliated                                                          Affiliated
Total Medical Care Budget in Millions                                              $658.2
Number of:
    Unique Patients                                                               73,118
    Outpatient Visits                                                             678,318
    Unique Employees2                                                             2,948
Type and Number of Operating Beds (April 2014):
    Hospital                                                                      250
    CLC                                                                           185
    MH                                                                            66
Average Daily Census (April 2014):
    Hospital                                                                      150
    CLC                                                                           133
    MH                                                                            57
Number of Community Based Outpatient Clinics                                       15
Location(s)/Station Number(s)                                                      McAllen/671B0
                                                                                   Frank M. Tejeda/671BY
                                                                                   Corpus Christi/671BZ
                                                                                   Harlingen/671GA
                                                                                   Victoria/671GB
                                                                                   Del Rio/671GC
                                                                                   Laredo/671GE
                                                                                   South Bexar/671GF
                                                                                   Beeville/671GH
                                                                                   Kingsville/671GI
                                                                                   Uvalde/671GJ
                                                                                   San Antonio PCN/671GK
                                                                                   New Braunfels/671GL
                                                                                   Seguin/671GN
                                                                                   San Antonio/671GO
VISN Number                                                                        17




1
    All data is for FY 2014 through May 2014 except where noted. 

2
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  16
                                                           CAP Review of the South Texas Veterans Health Care System, San Antonio, TX
                                                                                                                         Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)3




3
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                           17
                                                 CAP Review of the South Texas Veterans Health Care System, San Antonio, TX



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                                 18
                                                                                       CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


                                                                         Metric Definitions
 Measure                       Definition                                                                          Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)   A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                             A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                          A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                         A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)      A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                       A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                   A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                              A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                      A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)   A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)            A higher value is better than a lower value
 PSI                           Patient safety indicator                                                            A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                    A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                      A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction             A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                               A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction           A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure              A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                             A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                 A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                      A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)          A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                          19
                        CAP Review of the South Texas Veterans Health Care System, San Antonio, TX
                                                                                      Appendix C
                        Acting VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       June 25, 2014

          From: 	      Acting Director, VA Heart of Texas Health Care Network
                       (10N17)

       Subject: 	      CAP Review of the South Texas Veterans Health Care
                       System, San Antonio, TX

             To:       Director, Dallas Office of Healthcare Inspections (54DA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. Thank you for allowing me to respond to this	 CAP review of
          South Texas Veterans Health Care System.

       2. I concur with the recommendations and have ensured that action plans
          with target dates for completion were developed.

       3. If you have further questions regarding this review, please contact
          Denise B. Elliott, Quality Management Officer at 817-385-3734.




VA OIG Office of Healthcare Inspections                                                        20
                        CAP Review of the South Texas Veterans Health Care System, San Antonio, TX
                                                                                      Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       June 25, 2014

          From: 	      Director, South Texas Veterans Health Care System
                       (671/00)

       Subject: 	      CAP Review of the South Texas Veterans Health Care
                       System, San Antonio, TX

             To:       Director, VA Heart of Texas Health Care Network (10N17)

       1. Attached please find the response and action plan from the
          South Texas Veterans Health Care System.

       2. If 	you have any question, please contact Amjed                      Baghdadi,
          Chief Quality Management Officer at 210-617-5205.




VA OIG Office of Healthcare Inspections                                                        21
                        CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
the Blood Utilization Committee member from Surgery Service consistently attends
meetings.

Concur

Target date for completion: 8/1/14

Facility response: The Surgical Service representative has been identified as a standing
member of the Blood Utilization Committee. If member is unable to attend they must
send a substitute in their place. Compliance will be monitored through the committee
attendance roster.

Recommendation 2. We recommended that processes be strengthened to ensure that
patient care areas are clean and that compliance be monitored.

Concur

Target date for completion: 8/31/14

Facility response: To ensure cleanliness of patient care areas, EMS supervisors will
perform daily inspection of patient care areas and document findings. Findings will be
communicated with EMS staff responsible for that area to ensure findings are corrected.
Supervisors will document that the inspections were performed daily on each patient
care area and that findings were corrected.

Recommendation 3. We recommended that processes be strengthened to ensure that
damaged doors and floors and rusted lockers in patient care areas are repaired and that
ongoing maintenance be monitored.

Concur

Target date for completion: 9/30/14

Facility response: On June 2, 2014, Engineering Service initiated monthly Engineering
Walk Through Rounds of all patient care areas to provide ongoing maintenance
monitoring to identify items in patient care areas requiring repair. During the monthly
walks, work orders will be generated to correct issues observed and will be tracked until
completed. Patient Care Services will continue to report any environmental issues
requiring immediate attention through the work order process.


VA OIG Office of Healthcare Inspections                                                        22
                        CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


Recommendation 4. We recommended that processes be strengthened to ensure that
damaged furniture in patient care areas is repaired or removed from service.

Concur

Target date for completion: 8/31/14

Facility response: The identified damaged furniture was immediately removed from
patient care areas. To ensure ongoing compliance, the Interior Designer was added as
a member of the Environment of Care (EOC) Team to perform bi-weekly rounds
throughout the facility to assess and correct any newly identified damaged furniture.
Employee education regarding the proper method for requesting repairs or replacement
furniture will be incorporated within the facility’s weekly newsletter and/or on the
intranet.

Recommendation 5. We recommended that processes be strengthened to ensure that
physicians complete and document discharge progress notes or patient discharge
instructions and that compliance be monitored.

Concur

Target date for completion: 12/31/14

Facility response: A discharge progress note for use by providers has been
implemented to ensure that providers complete and document a discharge progress or
discharge planning instructions. Compliance will be monitored through the retrospective
review process of all discharges for the prior month until compliance is greater than
90% for 3 consecutive months.

Recommendation 6. We recommended that processes be strengthened to ensure that
clinicians complete and document the National Institutes of Health Stroke Scale for
each stroke patient and that compliance be monitored.

Concur

Target date for completion: 9/1/14

Facility response: All neurology clinicians have been re-educated on the requirements
to complete and document the National Institutes of Health Stroke Scale for each stroke
patient in the electronic health record within the expected timeframe. Quality
Management will monitor all Acute Ischemic Stroke cases reported in IPEC for a period
of not less than 90 days to ensure 100% compliance.




VA OIG Office of Healthcare Inspections                                                        23
                        CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


Recommendation 7. We recommended that processes be strengthened to ensure that
clinicians provide printed stroke education to patients upon discharge and that
compliance be monitored.

Concur

Target date for completion: 9/1/14

Facility response: At the time of discharge, nursing staff provides printed stroke
educational materials to stroke patients. This is documented in the patient’s electronic
health record. Quality Management will monitor all Acute Ischemic Stroke cases
reported in IPEC for a period of not less than 90 days to ensure 100% compliance.

Recommendation 8. We recommended that processes be strengthened to ensure that
staff who are involved in assessing and treating stroke patients receive the training
required by the facility and that compliance be monitored.

Concur

Target date for completion: 10/1/14

Facility response: Facility policy requires that staff who are involved in assessing and
treating stroke patients to include ED, ICU and Neurology providers, ED and ICU staff
nurses will receive TMS web-based training on the recognition and identification of
patients with acute ischemic stroke symptoms. This education will occur once at
orientation and should be completed within 90 days of employment. Additional
educational opportunities will be provided on an as needed basis. Compliance will be
monitored to ensure that not less than 90% of identified staff receive required web
based training.

Recommendation 9. We recommended that the facility collect and report to VHA the
percent of eligible patients given tissue plasminogen activator, the percent of patients
with stroke symptoms who had the stroke scale completed, and the percent of patients
screened for difficulty swallowing before oral intake.

Concur

Target date for completion: 9/1/14

Facility response: IPEC has been updated with Acute Ischemic Stroke data for the
period October 2013 to May 2014. Required data will continue to be entered into the
IPEC tool for the previous month following review and approval at the monthly Acute
Ischemic Stroke meeting.

Quality Management will collect data on 100% of Acute Ischemic Stroke cases for entry
into IPEC. Quality Management will monitor all Acute Ischemic Stroke cases reported
in IPEC for a period of not less than 90 days to ensure 100% compliance. Compliance
will be documented in the minutes.


VA OIG Office of Healthcare Inspections                                                        24
                        CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


Recommendation 10. We recommended that processes be strengthened to ensure
that staff complete and document restorative nursing services according to clinician
orders and/or residents’ care plans and that compliance be monitored.

Concur

Target date for completion: 9/30/14

Facility response: Training was provided on documentation of restorative services to
staff on May 14, 2014 by the restorative registered nurse to ensure staff provide and
document restorative services according to clinician orders and/or residents’ care plans.
Documentation will be monitored monthly by the restorative nurse to ensure 90% or
greater compliance for three consecutive months.

Recommendation 11. We recommended that processes be strengthened to ensure
that staff document resident progress towards restorative nursing goals and that
compliance be monitored.

Concur

Target date for completion: 9/30/14

Facility response: The restorative nurse assessment template was revised on
May 23, 2014, to include mandatory fields requiring documentation of residents’
progress towards restorative nursing goals by staff. Compliance will be monitored
monthly by the restorative nurse to ensure 90% or greater compliance for three
consecutive months.

Recommendation 12. We recommended that processes be strengthened to ensure
that staff document the reasons for not providing restorative nursing services when
those services are care planned and that compliance be monitored.

Concur

Target date for completion: 9/30/14

Facility response: The restorative aide note was revised on May 23, 2014, to include
areas for staff to document reasons for not providing restorative services or patient
refusal of services according to care plan. Documentation will be monitored monthly by
the restorative nurse to ensure 90% or greater compliance for three consecutive
months.




VA OIG Office of Healthcare Inspections                                                        25
                        CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


Recommendation 13. We recommended that processes be strengthened to ensure
that the restorative registered nurse or designee signs and provides feedback, if
indicated, on restorative aide notes.

Concur

Target date for completion: 9/30/14

Facility response: Restorative RNs who have completed the restorative service training
are designated as additional signers for restorative aide’s notes. This will ensure the
restorative aide notes are reviewed and restorative aides are provided feedback on
restorative services, if needed, in a timely manner. Documentation will be monitored
monthly by the restorative nurse to ensure 90% or greater compliance for three
consecutive months.

Recommendation 14. We recommended that processes be strengthened to ensure
that initial patient safety screenings are conducted and that compliance be monitored.

Concur

Target date for completion: 9/30/14

Facility response: STVHCS Imaging Services will develop an electronic Initial Patient
Safety Screening form by June 14, 2014, that contains mandatory fields which require
ordering providers to answer pre-screening questions at the same time of ordering any
MRI examination. The prescreening questions will be visible on each MRI request and
exams will not be scheduled until prescreening is completed. Providers will be notified
to complete the required screening. Imaging Services will monitor all MRI requests for
each month for a period of not less than 90 days to ensure compliance.

Recommendation 15. We recommended that processes be strengthened to ensure
that secondary patient safety screenings are completed immediately prior to magnetic
resonance imaging and that compliance be monitored.

Concur

Target date for completion: 10/31/14

Facility response: The secondary screenings will be required to be completed
immediately prior to any MRI examination and will be signed by the technologist.
Imaging Services will monitor all monthly MRI requests for completion of the screening
prior to MRI for a period of not less than 90 days to ensure 90% or greater compliance.




VA OIG Office of Healthcare Inspections                                                        26
                        CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


Recommendation 16. We recommended that processes be strengthened to ensure
that secondary patient safety screenings are reviewed by Level 2 magnetic resonance
imaging personnel on the same day as the magnetic resonance imaging and that
compliance be monitored.

Concur

Target date for completion: 10/31/14

Facility response: To ensure that all MRI Level 2 trained personnel review and sign the
secondary patient safety screening forms on the same day as MRI procedures, Imaging
Services will monitor all monthly MRI requests for the presence of a signature for a
period of not less than 90 days to ensure 90% or greater compliance.

Recommendation 17. We recommended that processes be strengthened to ensure
that Level 2 magnetic resonance imaging personnel conducting secondary patient
safety screenings sign the forms prior to magnetic resonance imaging and that
compliance be monitored.

Concur

Target date for completion: 10/31/14

Facility response: To ensure that all MRI Level 2 trained personnel sign the secondary
patient safety screening form prior to MRI procedures, Imaging Services will monitor all
monthly MRI requests for the presence of a signature for a period of not less than
90 days to ensure 90% or greater compliance.

Recommendation 18. We recommended that processes be strengthened to ensure
that radiologists and/or Level 2 magnetic resonance imaging personnel document
resolution in patients’ electronic health records of all identified magnetic resonance
imaging contraindications prior to the scan and that compliance be monitored.

Concur

Target date for completion: 10/31/14

Facility response: The STVHCS secondary patient safety screening form will also be
modified to allow an area for a Level 2 trained staff or a Board Certified Radiologist to
enter comments and/or recommendations for any contraindications. Imaging Services
will monitor all monthly MRI requests for a period of not less than 90 days to ensure
compliance.




VA OIG Office of Healthcare Inspections                                                        27
                        CAP Review of the South Texas Veterans Health Care System, San Antonio, TX


Recommendation 19. We recommended that processes be strengthened to ensure
that all designated Level 1 ancillary staff receive annual level-specific magnetic
resonance imaging safety training and that compliance be monitored.

Concur

Target date for completion: 10/31/14

Facility response: Level 1 ancillary staff will be designated by Imaging Service and will
be required to complete TMS course 9696 “MRI Safety.” Upon successful completion of
the training course, staff will be issued an MRI Level 1 access card. The access card
will be valid for one year and will require successful completion of the MRI safety course
annually for renewal. A current list of Level 1 trained staff will be kept with the
MRI Safety Officer and will be reviewed by the MRI Safety Committee for compliance.
Imaging Services will monitor completion of the designated TMS course to ensure
100% of designated Level 1 ancillary staff receives annual MRI safety training.




VA OIG Office of Healthcare Inspections                                                        28
                        CAP Review of the South Texas Veterans Health Care System, San Antonio, TX
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Trina Rollins, MS, PA-C, Team Leader
Contributors            Gayle Karamanos, MS, PA-C
                        Cathleen King, MHA, CRRN
                        Larry Ross, MS
                        James Ross, Resident Agent In Charge, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Jeff Joppie, BS
                        Misti Kincaid, BS
                        Nathan McClafferty, MS
                        Patrick Smith, M. Stat
                        Yurong Tan, PhD
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        29
                        CAP Review of the South Texas Veterans Health Care System, San Antonio, TX
                                                                                      Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Heart of Texas Health Care Network (10N17)
Director, South Texas Veterans Health Care System (671/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Cornyn, Ted Cruz
U.S. House of Representatives: Joaquin Castro, Lloyd Doggett, Blake Farenthold,
 Pete Gallego, Rubén Hinojosa, Randy Neugebauer, Lamar Smith, Mac Thornberry,
 Filemon Vela


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        30
                           CAP Review of the South Texas Veterans Health Care System, San Antonio, TX
                                                                                         Appendix G

                                                Endnotes

a
  References used for this topic included:

  VHA Directive 2009-043, Quality Management System, September 11, 2009. 

  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011. 

  VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010. 

  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010. 

  VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation 

   Beds, March 4, 2010.
 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
   Cardiopulmonary Resuscitation Committees, October 17, 2008.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 VHA Directive 6300, Records Management, July 10, 2012.
 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
  References used for this topic included:
 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
   Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
   American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
   and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories.
c
  References used for this topic included:

 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.

 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006. 

 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.

 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012. 

 Manufacturer’s instructions for Cipro® and Levaquin®.

 Various requirements of The Joint Commission.

d
  References used for this topic included:

 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements, 

   July 29, 2009.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
e
  The references used for this topic were:
 VHA Directive 2011-038, Treatment of Acute Ischemic Stroke, November 2, 2011.
 Guidelines for the Early Management of Patients with Acute Ischemic Stroke (AHA/ASA Guidelines),
   January 31, 2013.
f
  References used for this topic included:
 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                        31
                              CAP Review of the South Texas Veterans Health Care System, San Antonio, TX



g
    References used for this topic included:
	 VHA Handbook 1105.05, Magnetic Resonance Imaging Safety, July 19, 2012.
	 Emanuel Kanal, MD, et al., “ACR Guidance Document on MR Safe Practices: 2013,” Journal of Magnetic
    Resonance Imaging, Vol. 37, No. 3, January 23, 2013, pp. 501–530.
	 The Joint Commission, “Preventing accidents and injuries in the MRI suite,” Sentinel Event Alert, Issue 38,
    February 14, 2008.
	 VA National Center for Patient Safety, “MR Hazard Summary,”
    http://www.patientsafety.va.gov/professionals/hazards/mr.asp.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.




VA OIG Office of Healthcare Inspections                                                                          32
